TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Affordable Care Act: The Office of Appeals
                      Planning Efforts for the Health Care
                              Reform Legislation



                                       December 23, 2011

                              Reference Number: 2012-13-009




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website       | http://www.tigta.gov
                                                    HIGHLIGHTS


AFFORDABLE CARE ACT: THE OFFICE                        basis to remain informed on how the IRS is
OF APPEALS PLANNING EFFORTS FOR                        preparing for the ACA and the potential impact
THE HEALTH CARE REFORM                                 of these efforts on Appeals. To lead its planning
LEGISLATION                                            efforts, Appeals appointed a Senior Analyst in
                                                       July 2011 to serve as the Appeals ACA Program
                                                       Manager.
Highlights                                             In addition, Appeals created an internal website
                                                       with links to IRS ACA-related training, guidance,
Final Report issued on                                 and other resources. Appeals management also
December 23, 2011                                      informed TIGTA they are currently assessing
                                                       how to code ACA cases on their inventory
Highlights of Reference Number: 2012-13-009            database to track the number of taxpayers and
to the Internal Revenue Service Chief of               businesses that appeal the various health care
Appeals.                                               provisions.

IMPACT ON TAXPAYERS                                    As Appeals moves forward with its planning
                                                       efforts, TIGTA believes management should
The Patient Protection and Affordable Care Act         develop a more formal approach to its ACA
(ACA) contains significant changes to the              planning activities to ensure they are ready to
Nation’s health care system, which the Office of       resolve taxpayer requests of ACA-related issues
Appeals (Appeals) expects will result in new           in a timely and effective manner. This should
Appeals cases over the next several years.             include outlining the key objectives/tasks that
Appeals has taken some initial actions to begin        need to be addressed to prepare for the
preparing for the anticipated new ACA Appeals          ACA-related impact on Appeals, who will be
cases. Because of the potential for the ACA to         responsible for conducting these activities, and
affect most taxpayers, effective planning is           when these actions need to be completed over
critical to ensuring Appeals’ readiness to             the next several years.
prepare for this legislation and resolve taxpayer
requests in a timely and effective manner.             In addition, Appeals management should
                                                       consider the type and frequency of
WHY TIGTA DID THE AUDIT                                communication between the Appeals internal
                                                       working group, the IRS ACA Office, and other
This audit was initiated as part of TIGTA’s efforts
                                                       IRS operating divisions to ensure their planning
to evaluate the IRS’s plans for implementing the
                                                       efforts are coordinated as appropriate. This
various ACA tax provisions.
                                                       communication will assist Appeals management
The overall objective of our audit was to              in staying informed of IRS actions to address the
determine how Appeals planned for the                  ACA provisions. Effective planning is critical to
implementation of the health care legislation.         ensuring Appeals’ readiness to prepare for this
This review is included in our Fiscal Year 2012        legislation and resolve taxpayer requests in a
Annual Audit Plan and addresses the major              timely and effective manner.
management challenge of Implementing Major
Tax Law Changes.                                       WHAT TIGTA RECOMMENDED
                                                       TIGTA made no recommendations in this report.
WHAT TIGTA FOUND
                                                       Appeals management reviewed the report
After the ACA was enacted in March 2010, the           before it was issued and offered clarifying
IRS ACA Office determined that the impact on           comments and suggestions, which have been
Appeals would be minimal until after Calendar          taken into account.
Year 2013. Given this time period, Appeals
management has taken some initial actions to
begin preparing for the ACA legislation. Appeals
personnel have been detailed to the IRS ACA
Office and other IRS ACA teams on an ongoing
                                                   DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  December 23, 2011


 MEMORANDUM FOR CHIEF, APPEALS


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report - Affordable Care Act: The Office of Appeals
                                 Planning Efforts for the Health Care Reform Legislation
                                 (Audit # 201110026)

 This report presents the results of our review of the Internal Revenue Service (IRS) Office of
 Appeals’ (Appeals) planning efforts for the Patient Protection and Affordable Care Act1
 legislation. The overall objective of this review was to determine how Appeals planned for the
 implementation of the health care legislation. This review had a limited scope and focused on
 the status of Appeals’ efforts to plan for the health care reform legislation applicable to its
 customers. This audit is included in our Fiscal Year 2012 Annual Audit Plan and addresses the
 major management challenge of Implementing Major Tax Law Changes.
 We made no recommendations as a result of the work performed during this review. Appeals
 management reviewed the report before it was issued and offered clarifying comments and
 suggestions, which have been taken into account.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have any questions or Nancy A. Nakamura, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations), at
 (202) 622-8500.




 1
     Pub. L. No. 111-148, 124 Stat. 119 (2010).
                                    Affordable Care Act: The Office of Appeals
                              Planning Efforts for the Health Care Reform Legislation




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Appeals Has Taken Some Initial Actions to Plan for the Affordable
          Care Act ........................................................................................................ Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Affordable Care Act Provisions Expected
          to Have the Greatest Impact on Appeals....................................................... Page 9
            Affordable Care Act: The Office of Appeals
      Planning Efforts for the Health Care Reform Legislation




                  Abbreviations

ACA         Patient Protection and Affordable Care Act
IRS         Internal Revenue Service
                                 Affordable Care Act: The Office of Appeals
                           Planning Efforts for the Health Care Reform Legislation




                                              Background

The Patient Protection and Affordable Care Act (ACA),1
along with amendments in the Health Care and                    The Patient Protection and
Education Reconciliation Act of 2010,2 contains              Affordable Care Act, along with
significant changes to the Nation’s health care system.   amendments in the Health Care and
The Department of Health and Human Services is               Education Reconciliation Act of
                                                           2010, contains significant changes
responsible for the administration of changes to health
                                                           to the Nation’s health care system.
care policy issues, and the Internal Revenue Service
(IRS) is responsible for implementation of the multiple
tax law changes included in the legislation. The ACA contains $438 billion of revenue
provisions in the form of new taxes and fees. To manage implementation of the ACA, the IRS
established an overall ACA Office in mid-2010 headed by an executive dedicated solely to
overseeing the IRS’s ACA planning and implementation activities.
The mission of the Office of Appeals (Appeals) is to resolve tax controversies, without litigation,
on a basis which is fair and impartial to both the Government and the taxpayer in a manner that
will enhance voluntary compliance and public confidence in the integrity and efficiency of the
IRS. Taxpayers can request an independent review by Appeals when they have a dispute
pertaining to additional taxes, denials of credits, assessments of penalties, and/or the means by
which the IRS intends to collect a balance due.
Various provisions of the ACA could affect Appeals if taxpayers disagree with the IRS’s
position. Some of the ACA provisions that may result in disputes between the taxpayer and the
IRS are:
      •    Delivering tax credits to businesses, tax-exempt organizations, and individuals to assist in
           covering the cost of health coverage.
      •    Administering the requirement for individuals to purchase health coverage (only for those
           who are deemed able to afford such coverage) or be subject to a penalty on their
           individual Federal tax returns.
      •    Administering the requirement for certain large employers to offer affordable health
           insurance coverage to employees or be subject to a penalty.




1
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
    Pub. L. No. 111-152, 124 Stat. 1029 (2010).
                                                                                                Page 1
                              Affordable Care Act: The Office of Appeals
                        Planning Efforts for the Health Care Reform Legislation



While many tax provisions took effect in Tax Year3 2010, such as the Small Employer Health
Care Tax Credit, the most significant provisions will be implemented during the next several
years. Before a taxpayer can request a hearing with Appeals, the IRS usually must first process a
tax return filed by the taxpayer and subsequently conduct an audit of that return or propose some
other type of adjustment to the tax return, a process which could take several years. If the audit
results in increased taxes, penalties, interest, or other type of adjustments and the taxpayer
disagrees, he or she can generally request a hearing in Appeals. As a result, Appeals’ cases are
often closely tied to IRS enforcement actions taken to address tax deficiencies. Because of the
timing of any enforcement action on ACA-related provisions, IRS management does not believe
Appeals will be significantly affected by any ACA-related provisions until after Calendar
Year 2013.
This review was performed by contacting Appeals personnel in San Francisco, California;
Denver, Colorado; and Washington, D.C., during the period July through October 2011. This
review had a limited scope and focused on the status of Appeals’ efforts to plan for the health
care reform legislation applicable to its customers. We relied primarily on interviews with IRS
personnel and reviews of available documentation, such as meeting minutes and internal reports,
and did not perform any detailed testing to evaluate the effectiveness of actions taken by Appeals
to prepare for the health care reform legislation.
Otherwise, we conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 2
                           Affordable Care Act: The Office of Appeals
                     Planning Efforts for the Health Care Reform Legislation




                                Results of Review

After the ACA was enacted in March 2010, the IRS ACA Office determined that the impact on
Appeals would be minimal until after Calendar Year 2013. Given this time period, Appeals
management has taken some initial actions to begin preparing for the ACA legislation. Appeals
personnel have been detailed to the IRS ACA Office and other IRS ACA teams on an ongoing
basis to remain informed on how the IRS is preparing for the ACA and the potential impact of
these efforts on Appeals. To lead its planning efforts, Appeals appointed a Senior Analyst in
July 2011 to serve as the Appeals ACA Program Manager.
In addition, Appeals created an internal website with links to IRS ACA-related training,
guidance, and other resources. Appeals management stated that the website will be updated as
necessary and will provide useful information to employees who are working ACA-related
issues. Appeals management also informed us they are currently assessing how to code ACA
cases on their inventory database to track the number of taxpayers and businesses that appeal the
various health care provisions.
As Appeals moves forward with its planning efforts, we believe management should develop a
more formal approach to its ACA planning activities to ensure they are ready to resolve taxpayer
requests of ACA-related issues in a timely and effective manner. This should include outlining
the key objectives/tasks that need to be addressed to prepare for the ACA-related impact on
Appeals, who will be responsible for conducting these activities, and when these actions need to
be completed over the next several years. This will enable Appeals to determine when it will
need to start advance planning work for specific provisions, such as preparing guidance and
identifying potential resource needs.
In addition, Appeals management should consider the type and frequency of communication
between the Appeals internal working group, the IRS ACA Office, and other IRS operating
divisions to ensure their planning efforts are coordinated as appropriate. This communication
will assist Appeals management in staying informed of IRS actions to address the ACA
provisions. Effective planning is critical to ensuring Appeals’ readiness to prepare for this
legislation and resolve taxpayer requests in a timely and effective manner.

Appeals Has Taken Some Initial Actions to Plan for the Affordable
Care Act
We determined that Appeals management has initiated some planning efforts to prepare for the
ACA legislation. Specifically, Appeals has participated in the IRS ACA Office on an ongoing
basis to remain informed on how the IRS is preparing for the ACA and the potential impact of
these efforts on Appeals. Appeals management stated that the Office of Appeals has detailed a

                                                                                           Page 3
                              Affordable Care Act: The Office of Appeals
                        Planning Efforts for the Health Care Reform Legislation



number of Appeals personnel, including an Appeals executive, to the IRS ACA Office on a
full-time basis to assist with the implementation of the ACA provisions.
Appeals management also informed us that Appeals personnel participate on the Small
Business/Self-Employed Division ACA Executive Steering Committee to monitor this operating
division’s ACA-related outreach and compliance activities of small business taxpayers. In
addition, an Appeals senior manager is actively involved with the Large Business and
International Division ACA team addressing the Branded Prescription Drug Fee.4
Furthermore, Appeals management recognized the need to designate a management official to
lead its ACA planning efforts and appointed a Senior Analyst in July 2011 to serve as the
Appeals ACA Program Manager. This manager, in conjunction with other regular duties, has
begun to work with the IRS ACA Office to identify the extent and impact of ACA provisions on
Appeals operations. Appeals indicated this role does not currently require a full time effort;
however, we were advised that additional time and personnel would be assigned, as needed, to
assist in planning efforts.
As of August 2011, Appeals management stated that they have not received any ACA-related
cases. However, Appeals management could begin to receive cases related to the
non-exchange provisions5 of the ACA, which took effect in Calendar Year 2010. For example,
the ACA provision involving the indoor tanning tax may affect Appeals sooner than Calendar
Year 2013. We recently reported6 that the number of taxpayers filing tax returns related to the
indoor tanning tax is much lower than expected because some taxpayers may not be complying
with the new law. The IRS has issued notices to some taxpayers who may be liable for the
tanning tax, but who have not filed an excise tax return. The IRS also may initiate examinations
to identify noncompliant taxpayers who filed excise tax returns but underpaid the tanning tax,
which may result in some taxpayers requesting a hearing with Appeals personnel.
We also reported7 that the IRS’s Tax Exempt and Government Entities Division initiated
compliance examinations on returns from tax-exempt organizations claiming the Small
Employer Health Care Tax Credit. The IRS advised that, as of September 30, 2011, compliance
personnel from its Tax Exempt and Government Entities Division had initiated examinations on
769 returns from tax-exempt organizations claiming the Small Employer Health Care Tax Credit.
The outcomes of these examinations could also result in additional case receipts for Appeals if
the IRS disallows or reduces the credits claimed and the tax-exempt organizations disagree.

4
  An annual fee on covered entities engaged in the business of manufacturing or importing branded prescription
drugs is imposed by Section 9008 of the ACA as amended by Section 1404 of the Health Care and Education
Reconciliation Act of 2010.
5
  See Appendix IV for a description of the non-exchange and exchange provisions.
6
  Treasury Inspector General for Tax Administration, Ref. No. 2011-40-115, Affordable Care Act: The Number of
Taxpayers Filing Tanning Excise Tax Returns Is Lower Than Expected (September 2011).
7
  Treasury Inspector General for Tax Administration, Ref. No. 2011-10-085, Affordable Care Act: The Tax Exempt
and Government Entities Division’s Planning Efforts for the Health Care Reform Legislation (August 2011).
                                                                                                       Page 4
                           Affordable Care Act: The Office of Appeals
                     Planning Efforts for the Health Care Reform Legislation



In addition, Appeals could see additional cases after the exchange provisions of the ACA take
effect in Calendar Year 2014. These provisions are expected to affect most taxpayers and will
likely also require additional planning efforts by Appeals in the future. Specifically, Appeals
will need to consider whether new processes and procedures, as well as additional training
requirements, are needed to prepare for these taxpayer requests for Appeals assistance.
Appeals management informed us that they have an established process to estimate their future
workload and staffing needs. This process includes coordinating with the other IRS business
units as well as using historical Appeals data. Appeals management believes this process will
assist them with estimating future ACA workload. In addition, the IRS ACA Office prepared a
presentation of the non-exchange provisions and their anticipated impact on Appeals’ future
workload. Appeals management stated that this presentation was provided to all executive areas
in Appeals.
Currently, Appeals is faced with growing case receipts and inventory backlogs in existing
workload, which affects its ability to work cases as quickly as taxpayers would like. As a
consequence, the ACA has the potential to significantly impact Appeals operations with new
case receipts in addition to an already growing workload. Therefore, we believe it is important
that management plan for and consider this impact and how they will handle the increased
workload.
Because of the potential for the ACA to impact most taxpayers, effective planning is critical to
ensure Appeals is prepared for the impact of this legislation. As Appeals moves forward with its
planning efforts, we believe a more formal approach will assist Appeals in ensuring it will be
able to resolve taxpayer requests in a timely and effective manner. We made no
recommendations in this report since Appeals’ planning efforts are still being developed.




                                                                                           Page 5
                                 Affordable Care Act: The Office of Appeals
                           Planning Efforts for the Health Care Reform Legislation



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine how the Office of Appeals (Appeals) planned for the
implementation of the health care legislation. This review was of limited scope and the overall
approach was to gather the information necessary to quickly report the status of Appeals’ efforts
to plan for the health care reform legislation applicable to its customers. To accomplish our
objective, we:
I.         Determined whether Appeals has identified specific ACA1 provisions that will affect its
           case load.
           A. Interviewed Appeals management and obtained documentation identifying the
              provisions of the ACA that are likely to have the greatest impact on their function.
           B. Obtained and reviewed internally established documentation pertaining to Appeals’
              interpretation of the ACA and how it will affect the function.
II.        Determined the status of Appeals’ planning efforts to prepare for implementation of the
           ACA.
           A. Determined the extent and nature of Appeals’ participation with the IRS ACA Office.
           B. Conducted interviews with Appeals staff and identified the actions that have been
              taken to date and planned future actions to prepare for the ACA.
           C. Obtained plans/schedules developed by Appeals to guide and monitor its planning
              process for implementation of the ACA.
           D. Determined the extent of Appeals’ involvement with IRS operating divisions.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Appeals activities to plan for the new
legislation. We evaluated these controls by interviewing management and reviewing available
documentation.


1
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
                                                                                               Page 6
                         Affordable Care Act: The Office of Appeals
                   Planning Efforts for the Health Care Reform Legislation



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Yasmin B. Ryan, Lead Auditor
Mary F. Herberger, Senior Auditor
Mindy H. Dowdy, Auditor




                                                                                   Page 7
                         Affordable Care Act: The Office of Appeals
                   Planning Efforts for the Health Care Reform Legislation



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Appeals AP
Director, Affordable Care Act Office SE:ACA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Appeals AP
       Director, Affordable Care Act Office SE:ACA




                                                                             Page 8
                               Affordable Care Act: The Office of Appeals
                         Planning Efforts for the Health Care Reform Legislation



                                                                                              Appendix IV

              Affordable Care Act Provisions Expected
              to Have the Greatest Impact on Appeals

The ACA1 legislation includes numerous tax provisions whose effective dates span nine years
from January 2009 through January 2018. The provisions consist of two distinct categories:
non-exchange and exchange.
                                      Non-Exchange Provisions
The non-exchange provisions, many of which have already been implemented, include various
incentives and tax breaks for individuals and small businesses to offset health care expenses and:
     •   Relate to health policy or the expansion of coverage.
     •   Establish health care-related fees to fund the system.
     •   Include rules that have little to do with health care.
Figure 1 highlights the non-exchange provisions that IRS management determined will have the
greatest impact on Appeals:
                               Figure 1: Non-Exchange Provisions

    Provision      Type of                                                                          Effective
     Number       Provision                               Description                                 Date2
                 Small
                 Employer          Provides a tax credit to small employers who contribute
      1421                                                                                          01/01/2010
                 Health Care       to health insurance premiums for their employees.
                 Tax Credit
                Excise Tax
      10907     on Indoor        Imposes a 10 percent tax on indoor tanning services.               07/01/2010
                Tanning
Source: IRS Assessment of Non-Exchange Provisions Impact on Appeals, dated June 2011.




1
 Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
 The effective date is the date when the ACA provisions should be implemented. However, Appeals will not be
affected until after the taxpayer has filed or failed to file an applicable tax return, been subject to an IRS
enforcement action related to an ACA-related provision, and requested a hearing with Appeals to resolve any
disputes regarding the IRS’s decision.
                                                                                                          Page 9
                                Affordable Care Act: The Office of Appeals
                          Planning Efforts for the Health Care Reform Legislation



                                           Exchange Provisions
The exchange provisions, which take effect in Calendar Year 2014 and after, provide for
State-based insurance market plans through which individuals and small businesses can purchase
qualified coverage. The provisions:
     •   Require most individuals to purchase coverage.
     •   Require large employers to offer coverage.
     •   Establish premium tax credits to make coverage more affordable.
Figure 2 highlights the exchange provisions that IRS management determined will have the
greatest impact on Appeals.
                                    Figure 2: Exchange Provisions

    Provision      Type of                                                                             Effective
     Number       Provision                                Description                                   Date3
                                  This provision creates a refundable tax credit for eligible
                                  individuals and families who purchase insurance through
                  Premium
                                  an exchange. The premium assistance credit, which is
     1401         Assistance                                                                  01/01/2014
                                  refundable and payable in advance directly to the insurer,
                  Tax Credit
                                  subsidizes the purchase of certain health insurance plans
                                  through an exchange.
                  Penalty for     Requires all United States citizens and legal residents
                  Individuals     and their dependents to maintain minimum essential
     1501         Without         insurance coverage unless exempted starting in 2014         01/01/2014
                  Minimum         and imposes a fine on those failing to maintain such
                  Coverage        coverage.
                                  Imposes a penalty on large employers (50 or more
                                                           4
                  Penalty on      Full-Time Equivalents) who 1) do not offer coverage for
                  Large           all of their full-time employees, offer unaffordable
                  Employers       minimum essential coverage, or offer plans with high
     1513                                                                                     01/01/2014
                  Who Do Not out-of-pocket costs and 2) have at least one full-time
                  Offer           employee certified as having purchased health insurance
                  Coverage        through a State exchange and who was eligible for a tax
                                  credit or subsidy.
Source: Government Accountability Office, GAO-11-719, Patient Protection and Affordable Care Act: IRS Should
Expand Its Strategic Approach to Implementation (June 2011).


3
  The effective date is the date when the ACA provisions are scheduled to be implemented. However, Appeals will
not be affected until after the taxpayer has filed or failed to file an applicable tax return, been subject to an IRS
enforcement action related to an ACA-related provision, and requested a hearing with Appeals to resolve any
disputes regarding the IRS’s decision.
4
  Full-Time Equivalent is defined as a measure of labor hours in which one Full-Time Equivalent is equal to eight
hours multiplied by the number of compensable days in a particular fiscal year.
                                                                                                             Page 10
